BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Nigel
Christopher Paul Martin v. United States of America
was sent via Next Day Service to the U.S. Supreme
Court, and Next Day and e-mail Service to the
following parties listed below, this 2nd day of July,
2020:
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USD OJ.gov

Counsel for Respondent
Andrew B. Greenlee, Esq.*
Andrew B. Greenlee, P.A.
401 E. 1st Street, Unit 261
Sanford, Florida 32772
407 -808-6411
andrew@andrewgreenle elaw .com
*Counsel of Record for Petitioner

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
1 Cincinnati, Ohio 45249
I

Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 2, 2020.

onna J.
Becker Ga agher egal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

cf-% d ( 1D d0

c/-Jfi;_ fJ, ~
'0
Notary Public
[seal]

JOHN D. GALLAGHER
No1ary Public, tate of Ohio
My Commission Expires
February 14, 2 23

